     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




 Inadequate Planning for ANSF Facilities Increases Risks
               for $11.4 Billion Program




                                          January 26, 2011


SIGAR Audit-11-6 Security/ANSF Facilities Planning
     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


January 26, 2011

General James N. Mattis
Commander, U.S. Central Command

General David Petraeus
Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force

Lieutenant General William B. Caldwell, IV
Commanding General, NATO Training Mission-Afghanistan/
   Combined Security Transition Command-Afghanistan

This report discusses the results of a performance audit concerning U.S. funding and planning for
Afghan National Security Forces facilities. This report includes two recommendations to NATO Training
Mission-Afghanistan/Combined Security Transition Command-Afghanistan (NTM-A/CSTC-A) to maximize
the use of facilities construction and maintenance funding and ensure that these facilities address
strategic goals and objectives for the Afghan National Security Forces.

When preparing the final report, we considered comments from the Commanding General,
NTM-A/CSTC-A. While NTM-A/CSTC-A did not fully concur with our recommendation for a long-range
facilities construction plan, NTM-A/CSTC-A noted it can improve the identification of future projects and
better document its priorities. NTM-A/CSTC-A fully concurred with the need to develop a long-range
operations and maintenance plan. The comments are reproduced in appendix III.

A summary of this report is on page iii. This performance audit was conducted under the authority of
Public Law 110-181, as amended, the Inspector General Act of 1978, and the Inspector General Reform
Act of 2008.




Kathryn H. Bernet
Acting Assistant Inspector General for Audits
Office of the Special Inspector General
   for Afghanistan Reconstruction




SIGAR Audit-11-6 Security/ANSF Facilities Planning                                                          i
                 SIGAR
                                                           SIGAR Audit-11-6                                            January 2011

                                                                Inadequate Planning for ANSF Facilities
Special Inspector General for Afghanistan Reconstruction
                                                               Increases Risks for $11.4 Billion Program

What SIGAR Reviewed
From fiscal year 2005 to 2010, Congress appropriated about $28 billion for the Afghanistan Security Forces Fund. The
Combined Security Transition Command-Afghanistan (CSTC-A), under the direction of U.S. Forces-Afghanistan
(USFOR-A), uses this funding to equip, train, base, and sustain the Afghanistan National Security Forces (ANSF), which
includes the Afghan National Army (ANA) and Afghan National Police (ANP). ANSF personnel strength is planned to
reach 305,600 in October 2011 and, according to CSTC-A may go to 400,000 in October 2013. Additional facilities and
infrastructure are needed. In previous SIGAR audits, CSTC-A was not able to provide planning documents describing the
size, location, or use of ANSF facilities, such as ANA garrisons. As a result, SIGAR initiated this audit to (1) determine the
U.S. funding provided or planned for ANSF facilities construction and (2) assess CSTC-A’s overall planning for ANSF
facilities construction and the maintenance of them. To accomplish these objectives, SIGAR reviewed numerous
documents identified by CSTC-A. In particular, SIGAR examined CSTC-A’s August 2010 ANSF Comprehensive Plan for
Facilities Development. This plan was prepared by MACTEC Engineering and Consulting, Inc. (MACTEC) under a contract
through the Air Force Center for Engineering and the Environment (AFCEE). SIGAR also interviewed officials from
CSTC-A, AFCEE, and MACTEC. SIGAR conducted its work in Washington, D.C., from July 2010 to January 2011, in
accordance with generally accepted government auditing standards.

What SIGAR Found
Based on CSTC-A documents, it has provided or plans to provide a total of $11.4 billion through fiscal year 2012 for
construction of nearly 900 ANSF facilities, including over $7 billion in fiscal years 2010 through 2012. In addition, up to
$800 million may be provided for operations and maintenance over the next 5 years.
Despite the considerable funding and large number of facilities involved, CSTC-A has not developed a long-range
construction plan, placing its $11.4 billion ANSF facilities’ construction program at risk of building facilities that are
inadequate or do not meet ANSF strategic and operational needs. In 1998, the U.S. Government Accountability Office,
in conjunction with the Office of Management and Budget, created an executive guide that identified best practices for
planning construction of capital assets. The guide states that a long-range construction plan is necessary to ensure that,
as conditions change, plans can be adapted as needed, and resources can be prioritized and used effectively to achieve
applicable strategic goals. As part of its contract, MACTEC was tasked to develop the ANSF Comprehensive Plan for
Facilities Development. Although portions of the plan were out of date and most ANSF facilities plans were not
completed, it was the most complete listing and analysis of ANSF facilities that CSTC-A provided. While the plan
addressed a number of desired elements for long-range capital planning, CSTC-A should, for instance, identify how
current ANSF facilities are meeting Afghan security objectives, identify gaps, and evaluate how planned facilities will
help to eliminate those gaps. CSTC-A recognizes that long-range operations and maintenance of ANSF facilities needs to
be addressed. According to CSTC-A’s 2008 Campaign Plan, sustainment costs may continue through 2025. However,
CSTC-A does not have a long-range maintenance plan linking requirements to construction plans. Such a plan would
allow CSTC-A to identify and rationalize maintenance requirements across the hundreds of completed and planned
ANSF facilities to help ensure the most effective and efficient use of maintenance funding.

What SIGAR Recommends
To ensure that CSTC-A maximizes the use of facilities construction funding and that these facilities address ANSF
strategic goals and objectives, SIGAR recommends that CSTC-A, (1) develop a long-range planning document that
incorporates, among other things, updated requirements and justification for all ANSF facilities to meet CSTC-A’s
projected 400,000 ANSF personnel in 2013. In addition, to help ensure these facilities can be utilized as intended,
SIGAR recommends that CSTC-A, (2) develop a long-range operations and maintenance plan for all ANSF facilities that is
linked to its construction plan.
While CSTC-A did not fully concur with our recommendation for a long-range facilities construction plan, it noted it can
improve the identification of future projects and better document its priorities. CSTC-A fully concurred with the need to
develop a long-range operations and maintenance plan. CSTC-A outlined several steps it has taken or plans to take that
will substantially address SIGAR’s concerns.
                     For more information contact: SIGAR Public Affairs at (703) 602-8742 or PublicAffairs@sigar.mil



SIGAR Audit-11-6 Security/ANSF Facilities Planning                                                                                    ii
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
CSTC-A Estimates That $11.4 Billion Is Needed for ANSF Facilities Construction ........................................ 3
CSTC-A Has Not Developed a Long-Range Construction Plan That Meets U.S.
   Government Capital Planning Guidance and Best Practices .................................................................. 3
Conclusion ................................................................................................................................................... 10
Recommendations ...................................................................................................................................... 11
Comments ................................................................................................................................................... 11
Appendix I: Scope and Methodology ......................................................................................................... 13
Appendix II: Planning Documents Provided to SIGAR................................................................................ 14
Appendix III: Comments From NATO Training Mission-Afghanistan/Combined
   Security Transition Command-Afghanistan(NTM-A/CSTC-A)............................................................... 16


TABLES AND FIGURES

Table 1: ANSF Personnel Levels Approved by JCMB .................................................................................... 2
Table 2: Facilities with Completed Components in the ANSF Comprehensive Plan
    dated August 2010 ................................................................................................................................. 6
Table 3: Principles and Practices for Making Capital Investment Decisions and
    Those Practices Met by the ANSF Comprehensive Plan for Facilities
    Development, August 2010 .................................................................................................................... 8
Figure 1: Funding Provided through Afghanistan Security Forces Fund for ANSF
    facilities Construction, Fiscal Years 2005-2012 (dollars in billions)........................................................ 3




SIGAR Audit-11-6 Security/ANSF Facilities Planning                                                                                                             iii
ACRONYMS

AFCEE                    Air Force Center for Engineering and the Environment
ANA                      Afghan National Army
ANP                      Afghan National Police
ANSF                     Afghanistan National Security Forces
ASFF                     Afghanistan Security Forces Fund
CENTCOM                  U.S. Central Command
CSTC-A                   Combined Security Transition Command-Afghanistan
GAO                      U.S. Government Accountability Office
ISFF                     Iraq Security Forces Fund
JCMB                     Joint Coordination and Monitoring Board
MACTEC                   MACTEC Engineering and Consulting, Inc.
                         NATO Training Mission-Afghanistan/Combined Security Transition Command-
NTM-A/CSTC-A
                            Afghanistan
OMB                      Office of Management and Budget
SIGAR                    Special Inspector General for Afghanistan Reconstruction
USFOR-A                  U.S. Forces-Afghanistan




SIGAR Audit-11-6 Security/ANSF Facilities Planning                                                 iv
                      Inadequate Planning for ANSF Facilities Increases
                              Risks for $11.4 Billion Program


From fiscal year 2005 to 2010, Congress appropriated about $28 billion for the Afghanistan Security
Forces Fund. The Combined Security Transition Command-Afghanistan (CSTC-A), 1 under the command
of U.S. Forces-Afghanistan (USFOR-A), 2 uses this funding to equip, train, base, and sustain the
Afghanistan National Security Forces (ANSF), which includes the Afghan National Army (ANA) and
Afghan National Police (ANP). According to the Joint Coordination and Monitoring Board (JCMB), 3 total
ANSF personnel are planned to reach 305,600 in October 2011. According to CSTC-A, this number may
increase to 400,000 by October 31, 2013. As a result, additional facilities and infrastructure are needed.

In our previous audits of construction contracts for ANA garrisons located in Kunduz, Gamberi, and
Farah, we attempted to determine the manner in which the contract requirements were developed. 4
However, CSTC-A was not able to document the U.S. plans and justification for the number and types of
ANA facilities, including documents delineating the size, location, or use of the garrisons. 5 As we noted,
such planning documents are critical for CSTC-A to ensure that, as requirements change, plans can be
adapted as needed, resources can be prioritized and used to achieve strategic goals, and potential waste
can be minimized.

As a result, we initiated this audit. Our objectives were to (1) determine the U.S. funding provided or
planned to be provided for ANSF facilities construction and (2) assess CSTC-A’s overall planning for ANSF
facilities’ construction and the maintenance of them. To accomplish these objectives, we reviewed all
planning documents, strategies, operational orders, a fragmentary order, and other documents
identified by CSTC-A. In particular, we examined CSTC-A’s ANSF Comprehensive Plan for Facilities
Development. This plan was prepared for CSTC-A by MACTEC Engineering and Consulting, Inc.,
(MACTEC) under a contract with the Air Force Center for Engineering and the Environment (AFCEE). We
also interviewed officials from CSTC-A, AFCEE, and MACTEC. We conducted our work in Washington,

1
  CSTC-A is a joint command with the NATO Training Mission-Afghanistan (NTM-A). Because CSTC-A distributes
and manages all U.S.-provided funding to support ANSF, this report refers to CSTC-A.
2
  USFOR-A is the command and control headquarters for U.S. forces operating in Afghanistan. The Commander of
USFOR-A is also the Commander of the International Security Assistance Force. USFOR-A oversees CSTC-A’s efforts
to develop the ANSF.
3
  The Afghan government and the international community agreed in 2006 to create the JCMB. The JCMB is a
high-level, decision-making body focusing on resolving strategic problems arising from the implementation of the
Afghanistan Compact. It consists of 28 members; seven are from the Afghan government consisting of the Senior
Economic Advisor to the President, who is also a co-chair of the JCMB; the Ministers of Foreign Affairs, Finance,
Economy, Education, and Justice; and the National Security Advisor. The remaining 21 JCMB members are from the
international community.
4
  As mandated in the National Defense Authorization Act of 2008, Pub. L. No. 110-181, Sec. 842(g)(1).
5
  SIGAR, ANA Garrison at Farah Appeared Well Built Overall but Some Construction Issues Should Be Addressed,
Audit-10-14 (July 30, 2010); SIGAR, ANA Garrison at Kunduz Does Not Meet All Quality and Oversight
Requirements; Serious Soil Issues Need to Be Addressed, Audit-10-09 (Apr. 30, 2010); and SIGAR, ANA Garrison at
Gamberi Appears Well Built Overall but Some Construction Issues Need to Be Addressed, Audit-10-10 (Apr. 30,
2010).



SIGAR Audit-11-6 Security/ANSF Facilities Planning                                                             1
D.C., from July 2010 to January 2011, in accordance with generally accepted government auditing
standards. See appendix I for a more detailed discussion of our scope and methodology.


BACKGROUND

ANSF facilities and infrastructure requirements have increased dramatically over the years as ANA and
ANP planned personnel end-strengths have more than tripled. In 2001, the Bonn Agreement set initial
ANA troop levels at 50,000 and ANP personnel levels at 62,000, for a total of 112,000. As shown in
table 1, since 2006, the Afghan government and international community through the JCMB have
agreed on successive increases to ANSF personnel with the current approved end-strength totaling
305,600 in October 2011.


     Table 1: ANSF Personnel Levels Approved by JCMB
                                              Total
     Date                                    ANSF
                     ANA         ANP                Notes
     Issued                                    End-
                                          Strength

     Feb 2006          70,000         62,000        132,000

     May 2007          70,000         82,000        152,000

     Feb 2008          80,000         82,000        162,000

     Sept 2008       134,000          82,000        216,000

     Apr 2009        134,000          86,800        220,800       (added 4,800 Kabul police)

     Jun 2009        134,000          96,800        230,800       (added 10,000 provincial police)

     Jan 2010        134,000         109,000        243,000       (as of Oct. 31, 2010)

     Jan 2010        171,600         134,000        305,600       (by Oct. 31, 2011)

     Source: SIGAR analysis of CSTC-A documents entitled ANSF Force Structure Growth, as of January 30,
     2010, and ANA Force Generation, as of May 15, 2010.

According to CSTC-A, the personnel levels for the ANA and ANP may increase to 240,000 and 160,000,
respectively, for a total of 400,000 in October 2013. In addition, and adding further pressure to the
need to plan for and provide ANSF facilities, the International Security Assistance Force reports that as
of September 2010, the ANA had increased to 138,200 and the ANP to 120,500. This resulted in a total
of 258,700 ANSF personnel—exceeding the JCMB planned end-strength for October 2010 by more than
15,000 personnel.




SIGAR Audit-11-6 Security/ANSF Facilities Planning                                                          2
CSTC-A ESTIMATES THAT $11.4 BILLION IS NEEDED FOR ANSF FACILITIES CONSTRUCTION

Based on CSTC-A funding data, it has provided or plans to provide a total of $11.4 billion for ANSF
facilities construction for fiscal years 2005 through 2012, including over $7 billion in fiscal years 2010
through 2012. Figure 1 shows CSTC-A facilities funding by year for fiscal years 2005 through 2012.


     Figure 1: Funding Provided through Afghanistan Security Forces Fund for ANSF facilities
     Construction, Fiscal Years 2005-2012 (dollars in billions)




     Source: SIGAR analysis of CSTC-A funding data, January 16, 2011.
     Note: Funding for fiscal years 2011 and 2012 has not been appropriated and is indicated in red.

According to a November 2010 CSTC-A briefing document, 884 ANSF construction projects are planned
through fiscal year 2012—673 projects have not started, 78 are under construction, and 133 are
completed. In its July 2010 ANSF Force Generation Plans, CSTC-A stated that current and planned force
structure will require new facilities or sharing/expansion of those already planned. It also noted that at
least 12 months is required for new facilities.


CSTC-A HAS NOT DEVELOPED A LONG-RANGE CONSTRUCTION PLAN THAT MEETS U.S.
GOVERNMENT CAPITAL PLANNING GUIDANCE AND BEST PRACTICES

CSTC-A has not developed a long-range construction plan for ANSF facilities. In 1998, the
U.S. Government Accountability Office (GAO) in conjunction with the Office of Management and Budget
(OMB) created an executive guide that identified best practices for planning construction of capital
assets. The guide states that a long-range construction plan is necessary to ensure that, as conditions
change, plans can be adapted as needed and resources prioritized and used effectively to achieve
applicable strategic goals. Moreover, CSTC-A does not have a long-range maintenance plan linking




SIGAR Audit-11-6 Security/ANSF Facilities Planning                                                           3
requirements to long-range construction plans to help ensure the most effective and efficient use of
maintenance funding.

CSTC-A Has Not Developed a Long-Range Construction Plan that Addresses Strategic
Objectives

In conducting audits of construction contracts for ANA garrisons located at Gamberi and Kunduz, CSTC-A
provided us a number of documents related to ANSF facilities planning, but none addressed the overall
justification or rationale for these facilities or provided details on long-range plans to expand, share, or
construct new facilities to meet additional requirements. The documents CSTC-A provided, others we
reviewed, and our assessments of them are addressed in appendix II. As we noted in July 2010, without
a facilities plan that reflects current requirements, CSTC-A runs the risk of building facilities that do not
meet ANSF needs or are inadequate for projected personnel end-strengths. 6

CSTC-A tasked AFCEE with awarding a contract to develop and update a master planning document for
ANSF facilities. AFCEE awarded a time-and-materials contract to MACTEC in April 2006. 7 The contract
states that MACTEC would develop planning documents for facilities related to CSTC-A’s mission as
identified by CSTC-A’s Combined Joint-Engineering office. To date, MACTEC has been paid more than
$33.1 million to design ANSF facilities, including conducting site surveys, meeting with Afghan military
and police officials, and developing the requirements for new facilities such as the type of housing for
military and police personnel, the primary purpose of the facility, and the types of supplies needed.

As part of the contract, MACTEC was also tasked to develop the ANSF Comprehensive Plan for Facilities
Development, which is updated monthly. According to the executive summary, it “is a living document
that will be regularly updated as the plans for specific locations are updated or as new sites and missions
are identified.” We analyzed the August 2010 plan in detail and found that portions of the plan, such as
the strategic and operational analysis sections for the ANA and ANP, were out of date. For example, the
ANA operational section referred to ANA personnel end-strength figures from April 2007—namely, that
the ANA would increase to 70,000 troops rather than the current ANA end-strength of 240,000 troops in
October 2013. Nevertheless, this plan was the most complete listing and analysis of ANSF facilities that
CSTC-A provided. It contained 632 facility design plans. 8 According to the contract, the ANSF plan
should include one of the following for each facility:

    •    A conceptual master plan and supporting information, including (1) an introduction and
         planning process section; (2) a mission, vision, and charette 9 section; (3) a discussion and
         tabulation of existing and required facilities section; ( 4) a design-build scope of work section;
         and ( 5) an estimate section.



6
  See SIGAR Audit-10-14.
7
 A time-and-materials contract provides for the acquisition of supplies or services on the basis of direct labor hours
at fixed hourly rates and actual costs of materials. See the Federal Acquisition Regulation, Subpart 16.601(b).
8
  In some cases, MACTEC noted that design plans could be used for similar facilities in multiple locations; thus, it
had plans for more than 1,500 ANSF facilities.
9
  According to MACTEC officials, master planning charettes (or meetings) are conducted with as many stakeholders
as possible to discuss the planning for a specific ANSF site. Stakeholders include officials from CSTC-A and other
U.S. officials depending on the type of facility, the Afghan Ministry of Defense or Ministry of Interior, as
appropriate.



SIGAR Audit-11-6 Security/ANSF Facilities Planning                                                                   4
    •   A conceptual master site plan and abbreviated information section, including a summary of
        planning information currently available and a statement outlining the path forward for
        planning.
    •   A conceptual master plan template that would provide a prototype for sites that are similar in
        nature. Such templates include an estimate for the prototype, a design-build scope of work, and
        information for further planning or execution.

For the purposes of our analysis, we separated the facility design plans into eight key components:

    •   introduction and planning;
    •   mission, vision, and charette;
    •   existing condition of component;
    •   required facilities and assumptions;
    •   conceptual master plan;
    •   implementation program, including cost;
    •   scope of work; and
    •   reference figures.

As shown in table 2, we found that for 255 of the 632 design plans (40 percent), none of the eight
components had been completed; another 113 design plans (18 percent) addressed four or fewer of the
eight components. Only 24 design plans (less than 4 percent) addressed all eight components.




SIGAR Audit-11-6 Security/ANSF Facilities Planning                                                    5
     Table 2: Facilities with Completed Components in
     the ANSF Comprehensive Plan dated August 2010
      Number of
                                           ANSF      Percentage
      completed           ANA      ANP
                                           total         of total
     components

            8              10       14       24              3.8

            7              13     107       120            18.9

            6               8       92      100            15.8

            5               5       15       20              3.2

            4               3        5         8             1.3

            3               1        1         2             0.3

            2              21        1       22              3.5

            1              74        7       81            12.8

            0              75     180       255            40.3

                Total     210     422       632           100.0
     Source: SIGAR analysis of the ANSF Comprehensive Plan for
     Facilities Development, August 2010.

According to MACTEC officials, the majority of the ANA and ANP design plans were not completed
because CSTC-A had not tasked MACTEC to do so. However, a CSTC-A official stated that the ANSF plan
was not meant to be a strategic planning document for facilities but rather a document that allows
CSTC-A to keep track of facilities planning. According to this official, it is not a “forecasting document”
that CSTC-A uses to provide a strategic rationale for the location of new facilities constructed for the
ANSF. However, as we describe below, the ANSF Comprehensive Plan for Facilities Development
includes a number of desired elements for long-range capital planning.

GAO and OMB Have Developed Best Practices for Capital Investment that Could Improve
Planning for ANSF Facilities

In 1998, GAO reported that leading private sector firms and state government organizations rank their
future capital projects based on applicable criteria and prepare long-range capital plans based on
preliminary assumptions and estimates to identify specific planned projects, plan for long-range
resource use, and establish priorities for implementation. 10 Moreover, OMB encourages federal
agencies to develop long-range capital plans as part of their capital planning process. 11


10
   GAO, Executive Guide: Leading Practices in Capital Decision-Making, GAO-AIMD-99-32, Dec. 1998. GAO
developed this executive guide in conjunction with OMB.
11
   OMB, Capital Programming Guide, Version 2.0, Supplement to Office of Management and Budget Circular A-11,
Part 7: Planning, Budgeting, and Acquisition of Capital Assets, June 2006.



SIGAR Audit-11-6 Security/ANSF Facilities Planning                                                             6
According to the GAO guide, these plans usually cover 5-, 6-, or 10-year periods and are updated
annually or biennially. The guide also notes that industry and state government leaders have found that
long-range plans help control capital costs, and that developing long-range capital plans enables
organizations to review and refine a proposed project’s scope and cost estimates over several years,
which helps reduce cost overruns. The guide describes five principles and twelve best practices for
making capital investment decisions.

The ANSF Comprehensive Plan for Facilities Development addresses some of the principles and best
practices outlined in the GAO guide. According to SIGAR analysis, it incorporates project management
techniques, involves stakeholders, uses a cross-functional team to plan for projects, monitors project
performance, and budgets for segments of projects. However, it does not address principles that relate
to long-range planning. For example, CSTC-A has not done a comprehensive needs assessment of the
Afghan security goals that is linked to the construction of ANSF facilities and how they would help
achieve those goals. Additionally, CSTC-A should identify how current ANSF facilities are meeting
Afghan security objectives, identify gaps in current facilities’ ability to meet security objectives, and
evaluate how planned facilities will help to eliminate those gaps. Table 3 illustrates the best practices
outlined by GAO and whether CSTC-A’s planning document met those practices.




SIGAR Audit-11-6 Security/ANSF Facilities Planning                                                      7
     Table 3: Principles and Practices for Making Capital Investment Decisions and Those Practices
     Met by the ANSF Comprehensive Plan for Facilities Development, August 2010
                                                                                                        Practice met?
     Principles                    Practices
                                                                                                         Yes        No

                                   1. Conduct comprehensive assessment of needs to meet                              √
                                   results oriented goals and objectives.
     I. Integrate
     organizational goals into
                                   2. Identify current capabilities, including the use of an                         √
                                   inventory of assets and their condition and determine if
     the capital decision-
                                   there is a gap between current and needed capabilities.
     making process.
                                   3. Decide how to best meet the gap by identifying and                             √
                                   evaluating alternative approaches.

                                   4. Establish review and approval framework supported by                √
                                   analysis.
     II. Evaluate and select
     capital assets using an       5. Rank and select projects based on established criteria.                        √
     investment approach.
                                   6. Develop a long-term capital plan that defines capital                          √
                                   asset decisions.

     III. Balance budgetary        7. Budget for projects in useful segments.                             √
     control and managerial
     flexibility when funding
     capital projects.
                                   8. Consider innovative approaches to full up-front funding.                       √

     IV. Use project
                                   9. Monitor project performance and establish incentives for            √
                                   accountability.
     management techniques
     to optimize project
     success.
                                   10. Use cross-functional teams to plan for and manage                  √
                                   projects.


     V. Evaluate results and
                                   11. Evaluate results to determine if organization-wide goals                      √
                                   have been met.
     incorporate lessons
     learned into the decision
     making process.
                                   12. Evaluate the decision-making process, reappraise, and                         √
                                   update to ensure that goals are met.

     Source: SIGAR analysis of GAO, Executive Guide: Leading Practices in Capital Decision-Making, Dec. 1998, and CSTC-A’s
     ANSF Comprehensive Plan for Facilities Development, August 2010.

The GAO guide further states that although cost estimates contained in long-range capital plans are
preliminary, they provide decision-makers with an overall sense of a project’s funding needs.
Developing preliminary cost estimates for planned ANSF facilities would help commanders determine
the total cost for a specific facility and apply it to similar facilities.




SIGAR Audit-11-6 Security/ANSF Facilities Planning                                                                           8
Other U.S. departments and agencies have prepared long-range capital plans. In response to a January
2001 GAO report, 12 for example, the Department of State developed a Long-Range Overseas Buildings
Plan. 13 It is a comprehensive 6-year plan documenting State’s overseas buildings program for the
replacement of the least secure embassies and consulates around the world. Additionally, State
developed a Long-Range Overseas Maintenance Plan in recognition of the importance of planning for
the maintenance and sustainment of completed facilities. 14 State notes that these two volumes provide
a more complete picture of what is needed to fully respond to each facility’s needs and protects its
facilities and property investments. Moreover, State adds that proper maintenance of its multi-billion
dollar investment in buildings will ultimately save the taxpayers money.

Long-Range Maintenance Plan Would Help CSTC-A Plan for Sustainability of ANSF Facilities

CSTC-A recognizes that long-range operations and maintenance for ANSF facilities need to be addressed.
However, it does not have a separate plan to identify and rationalize ANSF maintenance requirements
across the hundreds of ANSF facilities completed or planned. As State notes, its long-range
maintenance plan for embassies and consulates around the world has allowed it to prioritize
maintenance requirements to help ensure the most effective and efficient use of appropriated
maintenance funding.

As we previously reported, according to CSTC-A officials, the government of Afghanistan does not have
the financial or technical capacity to sustain ANSF facilities once they are completed. 15 Since 2002, the
United States and the international community have provided funding for sustainment of ANSF facilities.
According to the CSTC-A 2008 Campaign Plan, future costs of sustainment may continue through 2025.
In September 2006, U.S. Army Corps of Engineers, Afghanistan Engineer District, awarded an operations
and maintenance contract for $200 million to Contrack International, Inc., to provide for the
sustainment of ANSF facilities. When the contract expired in October 2009, it exercised an option to
extend the ANA contract with Contrack International, Inc., until a new contract was awarded.

In July 2010, the United States Army Corps of Engineers, Afghanistan Engineer District, awarded two
new contracts for operations and maintenance for ANSF facilities. These contracts cover ANA and ANP
facilities in northern and southern Afghanistan for $450 million and $350 million, respectively. These
indefinite delivery/indefinite quantity contracts are for 1 base year plus 4 optional years. 16 According to
the program manager, these contracts may cover more than 660 sites. As sites are completed, they will
be added with task orders as warranted.



12
   GAO, Embassy Construction: Better Long-Term Planning Will Enhance Program Decision-making, GAO-01-11 (Jan.
22, 2001).
13
   The most current version is Department of State, Bureau of Overseas Buildings Operations, FY2010-2015,
Long-Range Overseas Buildings Plan (March 2010).
14
   The most current version is Department of State, Bureau of Overseas Buildings Operations, FY2010-2015,
Long-Range Overseas Maintenance Plan (March 2010).
15
   See SIGAR-Audit-10-09, SIGAR-Audit-10-10, and SIGAR-Audit-10-14. See also SIGAR, ANP Compound at
Kandahar Generally Met Contract Terms but Has Project Planning, Oversight, and Sustainability Issues, Audit-10-12
(July 22, 2010).
16
  Indefinite delivery/indefinite quantity contracts may be used to acquire supplies and/or services when the exact
times and/or exact quantities of future deliveries are not known at the time of contract award. See the Federal
Acquisition Regulation, Subpart 16.5.



SIGAR Audit-11-6 Security/ANSF Facilities Planning                                                              9
According to the program manager, the new contracts require a training program for Afghan workers in
all aspects of operations and maintenance. The program will be expanded with each additional year to
include all regions in Afghanistan. CSTC-A plans to transfer responsibility for all operations and
maintenance for the ANSF facilities to the government of Afghanistan by 2013. The additional optional
years for the contract would be included if all the ANSF facilities are not turned over by 2013.


CONCLUSION

Although the rapid pace of operations in Afghanistan and changing ANSF requirements are fluid and
difficult to predict, these conditions also reinforce the need for overall planning and justification for
both planned ANA and ANP facilities and those completed or under construction. Our prior audits of
ANA and ANP infrastructure projects have highlighted shortcomings in facilities planning and
maintenance. CSTC-A reports that over $7 billion is needed for ANSF facilities construction in fiscal years
2010 through 2012; and we note that up to $800 million may be provided for operations and
maintenance over the next 5 years.

However, despite the considerable funding and the large number of facilities involved, CSTC-A has not
prepared a long-range capital construction plan that supports strategic objectives; maximizes the
strategic effectiveness of the ANSF; and, in the end, will meet the Government of Afghanistan’s security
objectives. A long-range capital construction plan would improve accountability and transparency over
CSTC-A’s decision-making for ANSF facilities construction that will be ongoing through 2012 and beyond,
as well as help CSTC-A and the government of Afghanistan to ensure that, as requirements change, plans
can be adapted as required and resources can be prioritized and used effectively to achieve overall
strategic goals. Other U.S. departments and agencies have prepared long-range capital plans—State has
done so for its multiyear, multibillion dollar worldwide embassy construction program. Industry and
state government leaders have found that long-range plans help control capital costs, and that
developing long-range capital plans enables organizations to review and refine a proposed project’s
scope and cost estimates over several years, which helps reduce cost overruns. Without an ANSF
facilities plan that reflects current requirements, CSTC-A puts its $11.4 billion ANSF facilities construction
program at risk, including building facilities that are inadequate for the projected 400,000 ANSF
personnel in 2013 or do not meet the ANSF’s strategic and operational needs.

In addition, although the United States has a contract for operations and maintenance of ANSF facilities
potentially through 2015, CSTC-A does not have a long-range maintenance plan linking requirements to
long-range construction plans. Such a plan would allow CSTC-A to prioritize requirements to help ensure
the most effective and efficient use of maintenance funding and help ensure that ANSF facilities are
available for use as intended and, with proper maintenance of the multi-billion dollar investment in
ANSF facilities, ultimately save the taxpayers money.




SIGAR Audit-11-6 Security/ANSF Facilities Planning                                                         10
RECOMMENDATIONS

To ensure that CSTC-A maximizes the use of facilities construction funding and that these facilities
address ANSF strategic goals and objectives, we recommend that the Commanding General, CSTC-A:

    1. Develop a planning document that incorporates updated requirements for ANSF facilities;
       addresses the justification for and location of all ANSF facilities; determines how they meet
       strategic objectives for security; and discusses how facilities will be shared, expanded, or
       constructed to meet CSTC-A’s projected end strength of 400,000 personnel in October 2013.
       This plan should address the principles and best practices identified in the December 1998
       Executive Guide: Leading Practices in Capital Decision-Making.

In addition, to help ensure these facilities can be utilized as intended, we recommend that the
Commanding General, CSTC-A:

    2. Develop a long-range operations and maintenance plan for all ANSF facilities that is linked to a
       long-range construction plan.


COMMENTS

We provided a draft of this report to USFOR-A and CSTC-A for their comments. CSTC-A provided us
written comments through USFOR-A and CENTCOM (see appendix III). We also met with CSTC-A
officials to discuss their comments.

Overall, CSTC-A agreed with the report’s findings. In addition, CSTC-A noted several steps it has taken or
is in the process of taking to enhance its planning effort, including expanding its engineering capability
and establishing the Strategic Basing Executive Board to oversee the development of a “holistic” basing
concept that includes coalition, U.S. Forces, and ANSF construction. Once this and the other steps
outlined in CSTC-A’s comments have been completed, CSTC-A will have substantially addressed our
concerns.

CSTC-A did not fully concur with our recommendation to develop a long-range facilities’ construction
plan, but CSTC-A noted that it can improve the identification of future projects and better document its
priorities. However, CSTC-A questioned the applicability of the GAO/OMB Executive Guide’s suggested
approach for developing a long-range facilities’ construction plan in a war zone. In the report, we cited
the example of the Department of State and its long-range facilities construction and operations and
maintenance plans because we considered it particularly relevant. The Department of State has
thousands of facilities around the world, with some in contingency environments, including Afghanistan.
While we understand the exigencies and demands of operating in a contingency environment, these
conditions reinforce the need for an overall planning document and justification for the hundreds of
ANSF facilities CSTC-A has built or plans to build. Such a document is important for CSTC-A and the
Afghan government to ensure that, as requirements change, plans can be adapted as needed and
resources can be prioritized and used effectively to achieve overall strategic goals.

In regard to our recommendation to develop a long-range operations and maintenance plan, CSTC-A
stated that it completely agreed, and added that it has asked for additional staff from DOD to form the
Infrastructure Training and Advisory Group. The Group will implement a long-range operations and



SIGAR Audit-11-6 Security/ANSF Facilities Planning                                                        11
maintenance plan for all ANSF facilities. According to CSTC-A, the current operations and maintenance
contract is meant as a bridge to span several years until this effort is resourced.

Finally, CSTC-A provided us with updated funding figures for ANSF facilities construction, which we
incorporated into the final report.




SIGAR Audit-11-6 Security/ANSF Facilities Planning                                                    12
APPENDIX I: SCOPE AND METHODOLOGY

This report provides the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s audit of the U.S. overall planning process for the construction of the Afghanistan
National Security Forces (ANSF) facilities in Afghanistan. SIGAR initially contacted the U.S. Central
Command (CENTCOM) to begin this audit, but CENTCOM directed us to U.S. Forces-Afghanistan
(USFOR-A), which in turn directed us to the Combined Security Transition Command-Afghanistan
(CSTC-A).

To identify the funding provided and planned for ANSF facilities, we reviewed documents that CSTC-A
provided on the ANSF facilities and infrastructure cost; we also addressed these matters with CSTC-A
officials.

To assess CSTC-A’s planning for the construction of ANSF facilities, we interviewed officials at CSTC-A,
Air Force Center for Engineering and the Environment (AFCEE), and MACTEC Engineering and Consulting,
Inc., (MACTEC). MACTEC provided us with the ANSF Comprehensive Plan for Facilities Development,
August 2010. We reviewed the comprehensive plan to determine how many of the eight key
components MACTEC considered for each facility planning section. Based on our analysis, the eight key
components were (1) introduction and planning; (2) mission, vision, and charette; (3) existing condition
of component; (4) required facilities and assumptions; (5) conceptual master plan; (6) implementation
program, including cost; (7) scope of work; and (8) reference figures. Additionally, in response to our
inquiries, CSTC-A provided other documents that it asserted addressed ANSF facilities planning
(see app. II). We also reviewed several U.S. Government Accountability Office (GAO) reports addressing
long-term capital planning and met with its subject matter experts to determine the applicability of its
December 1998 Executive Guide: Leading Practices in Capital Decision-Making to ANSF facilities
planning. We used the GAO guide’s descriptions of the principles and practices to determine which ones
the ANSF Comprehensive Plan for Facilities Development addressed.

To assess CSTC-A’s planning for the maintenance of ANSF facilities, we confirmed that a facilities’
operation and maintenance contract was entered into by the U.S. Army Corp of Engineers, Afghan
Engineering District. In connection with other audits, we discussed the contracts with the project
manager to help ensure we understood the contracts’ provisions and requirements.

We conducted work in Washington, D.C., from July 2010 to January 2011 in accordance with generally
accepted government auditing standards. These standards require that we plan and perform the audit
to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. The audit was conducted by the Office of the
Special Inspector General for Afghanistan Reconstruction under the authority of Public Law No. 110-181,
as amended, the Inspector General Act of 1978, and the Inspector General Reform Act of 2008.




SIGAR Audit-11-6 Security/ANSF Facilities Planning                                                      13
APPENDIX II: PLANNING DOCUMENTS PROVIDED TO SIGAR

Since February 2010, Combined Security Transition Command-Afghanistan (CSTC-A) has provided us
with numerous documents that it asserted addressed the planning for Afghanistan National Security
Forces (ANSF) facilities. However, we determined that none of these documents addressed the overall
justification or rationale for these facilities or provided details on how CSTC-A plans to expand, share, or
construct new facilities to meet ongoing and future requirements. The documents CSTC-A provided,
others we reviewed, and our assessments of them follow.

    •   United States Plan for Sustaining the Afghanistan National Security Forces, June 2008. We
        reviewed this plan in January 2010. We found that it details how CSTC-A would work with the
        Afghan Ministry of Defense and Afghan Ministry of Interior to increase management and
        assessment procedures for the ANSF. Also in January 2010, we reviewed the CSTC-A Campaign
        Plan for the Development of Afghanistan National Security Forces, September 2008. It
        addressed goals to build and develop Afghan ministerial institutional capability and to generate
        and develop fielded forces. However, neither plan provided information on how current and
        future Afghanistan National Army (ANA) personnel will be deployed or the rationale and long-
        range plans for ANA garrisons.
    •   Office of the Secretary of Defense, Fiscal Year 2008, Security Forces Fund Justification for Iraq
        Security Forces Fund (ISFF) and Aghanistan Security Forces Fund (ASFF). CSTC-A provided this
        document in February 2010. We found that this funding document addressed several ANSF
        facilities, including several ANA garrisons, and cited an ANA Master Plan for Facilities
        Development, October 2005, as justification. However, CSTC-A officials were not aware of this
        “master plan” and could not locate a copy.
    •   Conceptual Master Plan for the ANA. CSTC-A provided this document in April 2010. We found
        that it addressed the mission and facility requirements for a number of ANA command-level
        sustainment organizations—including the Kabul Military Training Center, a Ministry of Defense
        compound, a medical command, an acquisition agency, and an Afghan National Army training
        command. The planning and analysis of these ANA facilities appeared detailed and
        comprehensive. However, the plan provided to us did not address the ANA Corps, was not
        signed or dated, and was missing numerous pages.
    •   Operations Order #01/2010. CSTC-A provided this document in June 2010. We determined that
        the order appeared to be an overall statement of CSTC-A’s role and its relationship with other
        organizations.
    •   ANA Fielding Plan (Annex K), Version 20. CSTC-A provided this to us in June 2010. We
        determined that Annex K was a spreadsheet listing numerous ANA kandaks (battalions) and the
        dates they were scheduled to attend training and deploy to a garrison or other facility.
    •   Islamic Republic of Afghanistan Campaign Plan for the Development of Enduring National
        Security and Police Forces. MACTEC Engineering and Consulting, Inc., (MACTEC) provided us this
        plan in September 2010. We found that the document was not dated or signed, and referred to
        ANA and ANP personnel levels from 2007. It did not address ANSF facilities planning.
    •   MOI Internal National Security Strategy, dated September 2006. MACTEC provided this strategy
        document in September 2010. We found that it had not been updated since 2006 and did not
        provide information on the justification for ANSF facilities.




SIGAR Audit-11-6 Security/ANSF Facilities Planning                                                          14
    •   Afghan National Army Force Generation Plan and support documents to this plan, dated May
        2010. CSTC-A provided us this plan in November 2010. We found that it did not address how
        ANSF facilities will support planned troop increases.
    •   The U.S. Basing Strategy-Afghanistan. CSTC-A provided this strategy in November 2010. It was
        created in response to a March 2010 U.S. Central Command tasking that stated that United
        States Forces-Afghanistan (USFOR-A) had no U.S. basing strategy that outlined the planned
        expansion of infrastructure in Afghanistan to support Operation Enduring Freedom. The U.S.
        Basing Strategy-Afghanistan provides base planning criteria for USFOR-A to use to locate a new
        base or expand an existing base but did not address any ANSF facilities.




SIGAR Audit-11-6 Security/ANSF Facilities Planning                                                   15
APPENDIX III: COMMENTS FROM NATO TRAINING MISSION-AFGHANISTAN/COMBINED
SECURITY TRANSITION COMMAND-AFGHANISTAN(NTM-A/CSTC-A)




SIGAR Audit-11-6 Security/ANSF Facilities Planning                       16
SIGAR Audit-11-6 Security/ANSF Facilities Planning   17
SIGAR Audit-11-6 Security/ANSF Facilities Planning   18
                  (This report was conducted under the audit project code SIGAR-028A).




SIGAR Audit-11-6 Security/ANSF Facilities Planning                                       19
SIGAR’s Mission               The mission of the Special Inspector General for
                              Afghanistan Reconstruction (SIGAR) is to enhance
                              oversight of programs for the reconstruction of
                              Afghanistan by conducting independent and objective
                              audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to
                              provide accurate and balanced information, evaluations,
                              analysis, and recommendations to help the U.S. Congress,
                              U.S. agencies, and other decision-makers to make
                              informed oversight, policy, and funding decisions to:
                                 •   improve effectiveness of the overall reconstruction
                                     strategy and its component programs;
                                 •   improve management and accountability over funds
                                     administered by U.S. and Afghan agencies and their
                                     contractors;
                                 •   improve contracting and contract management
                                     processes;
                                 •   prevent fraud, waste, and abuse; and
                                 •   advance U.S. interests in reconstructing
                                     Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s Web site (www.sigar.mil). SIGAR posts all
                              released reports, testimonies, and correspondence on its
                              Web site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan          allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs       reprisal contact SIGAR’s hotline:
                                 •   Web: www.sigar.mil/fraud
                                 •   Email: hotline@sigar.mil
                                 •   Phone Afghanistan: +93 (0) 700-10-7300
                                 •   Phone DSN Afghanistan 318-237-2575
                                 •   Phone International: +1-866-329-8893
                                 •   Phone DSN International: 312-664-0378
                                 •   U.S. fax: +1-703-604-0983

Public Affairs                Public Affairs Officer
                                 •   Phone: 703-602-8742
                                 •   Email: PublicAffairs@sigar.mil
                                 •   Mail: SIGAR Public Affairs
                                     400 Army Navy Drive
                                     Arlington, VA 22202
